 Department of Health and Human Services
                OFFICE             OF

    INSPECTOR                GENERAL




UNDERSTANDING            MEDICAL                BENEFITS: 



  The Explanation    of Medicare        Part B Benefits




                          JUNE GIBBS BROWN
                          Inspector General

                                APRIL 1995
                              OEI-01-93-00120
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs the
Secretary of HHS of program and managementproblems and recommends courses to correct them.

                            OFFICE OF AUDIT SERVICES
The OIG’s Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying out
their respective responsibilities and are intended to provide independent assessmentsof HHS
programs and operations in order to reduce waste, abuse, and mismanagement and to promote
economy and efficiency throughout the Department.

                            OFFICE OF INVESTIGATIONS
The OIG’s Office of Investigations (01) conducts criminal, civil, and administrative investigations
of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment
by providers. The investigative efforts of 01 lead to criminal convictions, administrative
sanctions, or civil money penalties. The 01 also overseesState Medicaid fraud control units which
investigate and prosecute fraud and patient abuse in the Medicaid program.

                OFFICE OF EVALUATION                    AND INSPECTIONS
The OIG’s Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department, the
Congress, and the public. The findings and recommendations contained in these inspection reports
generate rapid, accurate, and up-to-date information on the efficiency, vulnerability, and
effectiveness of departmental programs.

This report was prepared under the direction of Mark R. Yessian Ph.D., Regional Inspector
General, and Martha B. Kvaal, Deputy Regional Inspector General, Boston Region, Office of
Evaluation and Inspections. Participating in the project were the following people:

Boston                                                                          Headquarters
Barry McCoy                                                                     Thomas Noplock
Michael Sullivan                                                                Barbara Tedesco
Theodore Wall                                                                   Winnie Walker

For additional copies of this report, please contact the Boston regional ofice by telephone at
617-565-l 050 or by fax at 617-565-3751.
             EXECUTIVE                            SUMMARY

PURPOSE

The purpose of this inspection is to measure the effectiveness of Medicare’s Part B benefits
notice.

BACKGROUND

When a claim for medical insurance benefits is processed, Medicare sends a notice, the
Explanation of Your Medicare Part B Benefits (EOMB), to the individual beneficiary.
The EOMB informs the beneficiary what services were involved, how much Medicare
paid, why Medicare made the decision it did, and what action the beneficiary can take
next.

The Health Care Financing Administration (HCFA) has made and continues to make
revisions to improve the EOMB. It has used focus groups and purposive interviews to
evaluate EOMB effectiveness, but has not used survey questionnaires to systematically
measure beneficiary understanding.

We mailed a self-administered questionnaire to a random sample of Medicare beneficiaries
who had claims processed since HCFA’s last major revision of the EOMB. From the
respondents’ answers we created an overall index and four subindexes of beneficiary
understanding. Additionally, we collected and analyzed respondents’ opinions about how
easy or difficult it is to understand the EOMB.

SURVEY    RESULTS

Medicare beneficiaries appear to understand most of the information     on the EOMB.

On average, the 288 respondents we surveyed answered 72 percent of the survey questions
correctly (k2.37 percent at the 95 percent confidence level). They answered, on average,
19 percent incorrectly, and they did not answer 8 percent of the questions. The
percentages do not sum to 100 because of independent rounding.

Beneficiary understanding varies among different categories of information on the
EOMB. It is highest with respect to basic descriptive information and lowest with respect
to follow-up actions they could take in response to the EOMB.

The rate of correct answers differs among our four subindexes:

       Basic Information:    For questions concerning basic descriptive information on the
       EOMB, such as who and what service it is about, respondents on average answered
       83 percent correctly.



                                              i
       Cost Information: For questions concerning money amounts on the EOMB, such 

       as how much Medicare approved or paid, they answered on average 71 percent 

       correctly. 


       Context Information:     For questions concerning the reasons why Medicare made 

       the decision it explains on the EOMB, including understanding of key terms such as 

       “assignment” and “deductible,” respondents on average answered 68 percent 

       correctly. 


       Action Information:    For questions concerning what the beneficiary could do next, 

       such as appeal rights and amounts owed, they answered on average 64 percent 

       correctly. 


The lower level of correct answers to questions having follow-up implications for the
beneficiary reinforces a statement by Westat Inc., introducing the recommendations in a
study it conducted on the EOMB in 1992. Westat urged priority for helping beneficiaries
understand “the bottom line”-what    action they should take in response to the EOMB.

Beneficiaries regard the EOMB as no more, and no Less, difficult to understand than
other notices they receive in the mail.

Sixty-six percent of the 281 respondents who expressed opinions characterized the EOMB
as being neither easier nor harder to understand than notices such as bank statements or
utility bills. Another 17 percent thought the EOMB easier; the remaining 17 percent
thought it harder.

RECOMMENDATION

It is satisfying that the rate of understanding for basic descriptive information is quite high.
It is of some concern, however, that the rate is lower for the subindex that bears upon
matters previously identified as most important to beneficiaries-what      action(s) to take
next.

 We recommend that HCFA build on its prior efforts and give major attention to
informational items having follow-up implications for the beneficiary.

As HCFA continues to revise the EOMB it should aim to facilitate beneficiary
understanding of the following items:

  .    what the beneficiary needs to pay out of pocket,

  .    how the beneficiary can get more information,

  .    how to appeal Medicare’s decision, and

  .    what to do if there appears to be fraud or abuse.


                                               ii
COMMENTS        ON THE DRAFT REPORT

We shared a draft copy of this report with, and invited comments from, the Health Care
Financing Administration (HCFA) and the Assistant Secretary for Planning and Evaluation
(ASPE.) We summarize their comments below, along with our responses in italics.

The HCFA concurred with our recommendation. It stated that their Medicare Summary
Notice initiative includes plans for a section that will explain the actions necessary for an
appeal, and a “Customer Service Information Box” that will display important information.

 We appreciate HCFA ‘s positive response. We would be pleased to work with it in the
future to evaluate the effectiveness of the new summary notices, perhaps as an application
 of the methodology we developed in this study.

The ASPE, in comments accompanying its conditional concurrence with our draft report,
stated: ” ...the report should not assert that beneficiaries appear to understand most of the
information on the EOMB.” It went on to say: “It is easily argued that Medicare
beneficiaries ... find [the EOMB] very difficult to interpret based solely on the information
that fewer than 50% of them handle their own Medicare paperwork.”

We have revised the report to recognize more clearly the possible role that another person
might play in helping the beneficiary. However, we have retained in the finding the
assertion about beneficiary understanding.

Our purpose was to measure the effectiveness of the EOMB as Medicare actually uses it.
In mailing the EOMB to the beneficiary Medicare accepts whatever informal support the
beneficiary chooses. We accepted as representative of beneficiary understanding the
answers returned by anyone responding on the beneficiary’s behalf just as Medicare
accepts the informal support that friends, relatives, physicians, and representatives give
beneJiciaries in understanding the EOMB.




                                              111 

                         TABLE                       OF            CONTENTS

                                                                                       PAGE

EXECUTIVE SUMMARY 


INTRODUCTION                 .........................................                     1


SURVEYRESULTS                  ........................................                    5


  0 Overall Understanding. ....................................                            5

  l   Subcategoriesof Information.                  ................................       5

  l   Comparison to Other Notices. ................................                       11

RECOMMENDATION                      ......................................                12

COMMENTS ON THE DRAFT REPORT ..........................                                   13 


APPENDICES 


A: Example of an EOMB ....................................                              A-l 


B: Sample Selection .......................................                             B-l 


c: Analysis for NonresponseBias ...............................                         C-l 


D: Survey Results ........................................                              D-l

E: Complete Comments on the Draft Report ........................                        E-l

F: Notes ..............................................                                  F-l
                           INTRODUCTION

PURPOSE

The purpose of this inspection is to measure the effectiveness of Medicare’s Part B benefits
notice.

BACKGROUND

Medicare is the Federal program of health insurance for people aged 65 or older and for
certain disabled people.’ There are two parts to Medicare. Hospital insurance (Part A)
helps pay for inpatient hospital care and for related care by a skilled nursing facility, home
health agency, or similar facility. Medical insurance (Part B) helps pay for a doctor’s
services, outpatient hospital care, and a number of related medical services and supplies not
covered by Part A.2

This inspection addresses only medical insurance benefits under Part B. For most people,
Medicare Part B operates as an indemnity insurance program.3 When a Medicare enrollee
incurs an expense for medical care, the provider of service must submit a claim for
reimbursement through one of the insurance companies that have contracted with the
Federal government to act as carriers for Medicare Part B medical insurance.4 The carrier
determines if the service is eligible for reimbursement and issues the appropriate payment.

When the carrier processes a Medicare Part B claim it sends a notice, the Explanation of
Your Medicare Part B Benefits, or EOMB, telling the beneficiary what decision Medicare
made on the claim.5 Appendix A contains an example of an EOMB. The numbers
correspond to the questions in our survey instrument.

The EOMB serves two purposes. First, it serves as a formal notice to the beneficiary of
Medicare’s decision. In doing so, it notifies the beneficiary of the right to appeal in the
event of disagreement, and the time limit for appeal. Second, the EOMB serves as the
explanation to the beneficiary of the reasons why Medicare made the decision it did.

To serve these purposes the EOMB needs to convey information to the beneficiary in four
categories:

  .	   Basic descriptive information about the provider, the medical service, when the
       service occurred, who was paid, and who was the beneficiary.

  .	   Cost and financial information about the amount of money charged to Medicare,
       approved by Medicare, paid, and applied to the deductible and coinsurance.

  .    Key terms and contextual information about the reasons for Medicare’s decision.




                                              1

  .	   Action information about what the beneficiary needs to do next to obtain more
       information, appeal Medicare’s decision, pay the provider what remains due, or
       recognize potential fraud.

In response to criticisms that the EOMB was not effective in communicating claim
information to beneficiaries, the Health Care Financing Administration (HCFA) began a
series of substantial revisions to the notice, starting in 1991. By late 1992 all 33 carriers
had implemented the first set of major revisions. At that time HCFA contracted with the
research firm Westat to evaluate the revised EOMB.6 Westat found that the revision was
a substantial improvement over the earlier version of the EOMB. But Westat also found
that beneficiaries could still be confused about what action they should take in response to
the EOMB. Westat noted, particularly, that beneficiaries were confused about how much
they still owed after Medicare made its payment.

Westat’s methodology involved focus groups of beneficiaries and their representatives,
along with purposive interviews of HCFA staff, carrier personnel, and Medicare advocates.
The focus group discussions used sample EOMBs, not real claims. While HCFA was
generally satisfied with the Westat report, it felt that a scientific evaluation was
appropriate, using real EOMBs for a representative sample of beneficiaries.

Since the Westat evaluation, in 1993 and 1994, HCFA has continued to add enhancements
to the revised EOMB. At the same time the need for clear, correct, and simple
communication with beneficiaries has come to the fore. A report by the National Academy
of Social Insurance in June 1993 recommended that HCFA continue to review and evaluate
the efforts that have been undertaken to improve the EOMB.7

Customer service improvement is among the major themes to emerge from the National
Performance Review. Along with other agencies, HCFA recently introduced new and more
user-friendly brochures for Medicare and related programs. A more user-friendly EOMB
remains a related goal.

METHODOLOGY

Data Collection

Ours was a mail survey using a self-administered questionnaire that asked the beneficiary
to interpret information on the EOMB. We sent the questionnaire to a simple random
sample of Medicare beneficiaries, whose selection we describe in Appendix B. The first
mailing included a personal cover letter seeking the beneficiary’s participation and a copy
of their sample EOMB printed on yellow paper with the word “COPY” in red letters across
the front, along with the questionnaire booklet. About a month after the initial mailing we
sent a reminder letter, and about three weeks after that we sent a third letter with another
copy of the questionnaire.

In the cover letter we addressed the beneficiary. We recognized that many people in the
beneficiary population do not handle their own business affairs. The cover letter and the


                                              2
instructions in the questionnaire booklet invited whomever handles those affairs to respond.
The EOMB communicates effectively if it conveys information to that person and, through
him or her, to the beneficiary.

In presenting our results we report them as measures of beneficiary understanding, whether
the beneficiary answered the questions directly or through some other person. In a mail
survey we cannot know to what extent another person may have influenced a beneficiary’s
responses. Nor can we assume that participation by another person reflects difficulty by
the beneficiary in understanding the EOMB; it could be a matter of convenience for the
beneficiary.

Our purpose was to measure the effectiveness of the EOMB as Medicare actually uses it.
In mailing the EOMB to the beneficiary, Medicare accepts on its own terms whatever
support the beneficiary chooses to seek. It is always possible that another person might
play a role in helping the beneficiary understand the EOMB. We accepted as
representative of beneficiary understanding the answers returned by anyone responding on
the beneficiary’s behalf, just as Medicare accepts the informal support that friends,
relatives, physicians, and representatives give to beneficiaries in understanding the EOMB.
We believe our survey places no more limitation on beneficiary understanding than does
Medicare’s mailing.

We analyzed the sample for possible age and sex bias. As detailed in appendix C, we
found no evidence for response bias.

Data Analysis

Our survey included 23 factual questions that asked for specific responses corresponding to
information contained on the EOMB. We counted the numbers of correct and incorrect
responses to each question, along with the numbers not answered and, for seven of the
questions, the numbers of “Don’t know” responses. We report in Appendix D the counts
and the associated percentages of 288 total responses.

Six other questions asked either the beneficiary’s opinion or preference in dealing with
EOMB-related matters. For these we recorded the respondent’s selection among the
multiple choices. We report these counts, and the associated percentages of respondents
who expressed an opinion, in Appendix D.

At the end of the questionnaire we invited additional comments. These we analyzed for
common threads, and for positive or negative characterization of the understandability of
the EOMB.

We coded and checked all of the responses and entered them into a database file. We used

a personal computer to develop the counts and percentages that are reported in Appendix D.
Additionally, we created an overall index of understanding for each beneficiary based on
the number of questions answered correctly, incorrectly, or not answered. In calculating


                                             3
this index we combined the raw number of incorrect answers with “Don’t Know” answers
and report the sum under the heading “Incorrect”. This index, along with four subindexes
calculated similarly to measure beneficiary understanding of specific categories of
information, forms the basis for our analysis of the respondents’ collective understanding
of the EOMB.

We completed our review in accordance with the Quality Standards for Inspections issued
by the President’s Council on Integrity and Efficiency.




                                             4

                        SURVEY                RESULTS

Medicare beneficiaries appear to understand most of the information      on the EOMB.

On average, the 288 respondents we surveyed answered 72 percent of the survey questions
correctly (+2.37 percent at the 95 percent confidence level). They answered, on average,
19 percent incorrectly, and they did not answer 8 percent of the questions. The
percentages do not sum to 100 because of independent rounding.

Two beneficiaries had the lowest score for the overall index; they answered 4 percent
(1 out of 23 questions) correctly. Two other beneficiaries answered all 23 questions
correctly. Among individual questions, the lowest rate of correct answers was 43 percent
for a question about understanding the words “Your total responsibility” on the EOMB.
The highest rate of correct answers was 94 percent for a question about the Medicare
number.

Beneficiary understanding varies among different categories of information on the
EOMB. It is highest with respect to basic descriptive information and lowest with respect
to follow-up actions they could take in response to the EOMB.

The rate of correct answers differs among our four subindexes:

       Basic Information:      For questions concerning basic descriptive information on the 

       EOMB, such as who and what service it is about, respondents on average answered 

       83 percent correctly. 


       Cost Information: For questions concerning money amounts on the EOMB, such 

       as how much Medicare approved or paid, they answered on average 71 percent 

       correctly. 


       Context Information:     For questions concerning the reasons why Medicare made 

       the decision it explains on the EOMB, including understanding of key terms such as 

       “assignment” and “deductible,” respondents on average answered 68 percent 

       correctly. 


       Action Information:    For questions concerning what the beneficiary could do next, 

       such as appeal rights and amounts owed, they answered on average 64 percent 

       correctly. 


The lower level of correct answers to questions having follow-up implications for the
beneficiary reinforces a statement by Westat Inc., introducing the recommendations in a
study it conducted on the EOMB in 1992. Westat urged priority for helping beneficiaries
understand “the bottom line”-what    action they should take in response to the EOMB.




                                              5

INDEXES

Table I below summarizes the survey results for our overall index and four subindexes of
beneficiary understanding.


                                            TABLE   1
                          BENEFICIARY          UNDERSTANDING
                                             for the
            EXPLANATION                 OF MEDICARE PART B BENEFITS
  Overall   Index




                information identifying the EOMB:
                Provider, service, dates, claim and
                Medicare numbers, and who was paid.

                Includes 5 survey questions that ask for
                information about the money amounts
                on the EOMB: amounts charged,
                                applied to deductible



                information necessary to understanding
                the reasons for Medicare’s decision on
                the claim: Explanatory notes and

                Includes 6 survey questions that ask for
                information bearing on actions the
                beneficiary could take in response to the



   Shading for Sublndex   Pie Charts:


  SOURCE: OIG Mail Survey, September 1994




                                               6

QUESTIONS

Basic

The subindex of basic descriptive information includes seven questions that address what
service was provided, by whom, and when. Three respondents answered none of these
questions correctly; 119 answered all 7 correctly. Table 2 below summarizes the results
for the subindex and the individual questions.

                       TABLE 2: BASIC DESCRIPTIVE INFOIUWATION
  SURVEYRESULTS FOR BASIC SUBINDEX OF 7 QUESTIONS (AVERAGEPERCENT):



  SURVEY RESULTS FOR THE 7 INDIWDUAL QUESTIONS:
    Question    Subiect of Question                                        Percent
    Number                                                  Correct      Incorrect   No Answer
         1     Date of EOMB                                    63           32           5
        2      Claim ControI Number                            84           10           6
        3      Who Provided the Services on the EUMB           90            5           5
        4      What Kinds of Services Were Provided            82           11          7
        5      When the Services Were Provided                 82           8           11
        12     Who Was Paid                                    86           6           6
        23     Medicare Number                                 94           3           2
 ,NOTE: Percentages may not sum to 100 becauseof independent rounding.
   OURCE: OIG Mail Survey, September 1994



The highest rates of correct answers to basic questions occurred for the Medicare number
(that identified the beneficiary) and the provider of service (that identified the provider.) A
few of the “incorrect” respondents chose to ignore the provider listed on the EOMB and
wrote in the names of their regular physicians-whom      they identified as such. The small
number of these, together with the circumstance that many sample EOMBs listed
laboratories or other impersonal providers, suggests that the respondents truly derived their
answers from the EOMB copies we sent them, as we requested in the cover letter.

In contrast, the answer to our question on the claim control number could only be obtained
by a careful reading of the EOMB. Yet 84 percent of the responses to this question were
correct. Respondents can recover specific and very technical information from the EOMB.

 The rate of correct answers for who was paid, 86 percent, was above average for the
 questions in the subindex. This may reflect the direct statement (added in 1994 and placed
just beneath the summary box) whether or not the provider accepted assignment.
cost
The subindex of cost and financial information includes five questions that address the
money amounts charged to, approved by, and paid by Medicare. Nineteen respondents
answered none of these questions correctly; 84 answered all 5 correctly. Table 3 below
summarizes the survey results for the subindex and the individual questions.

                              m          COST INFORMATION
  SURVEYRESULTS FOR COST SUBINDEX OF 5 QUESTIONS (AVERAGEPERCENT):



   URVEY RESULTS FOR THE 5 INDIWDUAL QUESTIONS:




The highest rates of correct answers to individual cost questions occurred for the amounts 

charged to Medicare and approved by Medicare. These amounts were displayed 

prominently in the summary box at the upper right hand area of the EOMB. They were 

also clearly labeled. In their comments, some respondents expressed approval for this 

mode of displaying information. A few went on to suggest that a slightly expanded 

summary box could convey almost all of the information that ordinarily interests a 

beneficiary on the EOMB. 


The rates of correct answers to the questions about deductible and copayment amounts, 

59 and 47 percent, were among the lowest in the survey. The “No Answer” rates for these 

two questions, 13 and 18 percent, were among the highest in the survey. The word 

“copayment” or “coinsurance” did not appear directly on the EOMB. The word 

“deductible” might appear only in a separate message telling the beneficiary that the 

deductible had already been met. For these questions, respondents had to figure out the 

answers on their own, rather than associate a clearly labeled amount on the EOMB with 

the subject of the question. 





                                             8

Context

The subindex of context information and key terms includes five questions that address the
reasons for Medicare’s decision and beneficiary understanding of some key Medicare
terms. Ten beneficiaries answered none of these questions correctly; 62 answered all
5 correctly. Table 4 below summarizes the survey results for the subindex and the
individual questions.

                      TABLE 4: CONTEXT INFORMATION                 AND KEY TERMS
 SURVEY RESULTS FOR CONTEXT SUBINDEX OF 5 QUESTIONS (AVERAGE PERCENT):



 SURVEYRESULTS
 SURVEY RESULTSFOR
               FOR THE
                   THE 5 INDIVIDUAL
                         INDIWDUAL QUESTIONS:
                                   QUESTIONS:
    Question      Subiect of Question                                               Percent
    Number                                                           Correct      Incorrect     No Answer
          9       “Notes” on the EOM3                                   64              22          8
          26      Understanding of “Assignment”                         75              22          3
          27      Understanding of “Deductible’+                        84              14          2
          28      Understanding of “Copayment”                          68              28          5
          29      Understanding of “Your Total                          43              53          4
                  Responsibility”
 NOTES:    Percentages may not sum to 100 becauseof
                                             because of independent rounding.
           Percent Incorrect includes the following percentages answering “Don’t Understand”:
           Question 9: 0; Question 26: 14; Question 27: 3; Question 28: 17; Question 29: 4.
  OURCE: OIG Mail Survey, September 1994
                                                                    sbadillg
                                                                         Key:    cana



The lowest rate of correct answers for any of the 23 survey questions, 43 percent, occurred
for the context question concerning understanding of the words “Your total responsibility.”

The highest rate of correct answers for a context question, 84 percent, occurred for the
question concerning the respondent’s understanding of the word “deductible.” The “NO
Answer” rate of 2 percent for this question was the lowest for all the questions in the
survey.

At least as measured by percent correct, beneficiary understanding of the “deductible” was
substantially higher for the general definition of the term (84 percent) than for the actual
deductible amount on the sample EOMB (Question 13 had 59 percent correct.) Similarly,
measured understanding of the general term “copayment” at 68 percent correct was higher
than that for the actual amount on the EOMB, (Question 14 had 47 percent correct.)

But note that, for both deductible and copayment, the “Incorrect” rates are the same for
general questions 27 and 28 and specific questions 13 and 14. The gain in “Correct” rates
in going from general to specific reflects a decrease in “No Answers.”


                                                       9

Action

The subindex of beneficiary actions includes six questions addressing how to obtain more
information, how to appeal, and what is still owed. Eleven respondents answered none of
these questions correctly; 37 answered all 6 correctly. Table 5 below summarizes the
survey results for the subindex and the individual questions.

                            TABLE 5: BENEFICIABY ACTION R’WOBMATION
 SURVEYRESULTS FOR ACTION SUBINDEX OF 6 QUESTIONS (AVERAGE PERCENT):



 SURVEY RESULTS FOR THE 6 INDIVIDUAL QUESTIONS:
     Question       Subiect of Question                                                Percent
     Number                                                             Correct      Incorrect     No Answer
             6      What To Do If A Service Was Not Received               53            38             10
         15         Total Providers Can Coffect                            54            30             17
         16         Amount You Add To Medicare’s Payment                   69            16             16
         20         Who To Contact With Questions                          78            12             10
         21         How To Appeal                                          81            x5              4
         22         Closing Date for Appeat                                52            32             16
  NOTES: 	   Percentages may not sum to 100 becauseof independent rounding.
             Percent Incorrect includes the following percentages answering “Don’t Understand”:
             Question 6: 7; Question 15: 0; Question 16: 0; Question 20: 0; Question 21: 2; Question 22: 0.
   OURCE: OIG Mail Survey, September 1994



A higher-than-average percent of respondents correctly answered the questions about who
to contact for additional information (78 percent) and how to file an appeal (81 percent).
Only 52 percent correctly answered the question concerning the closing date for filing an
appeal. Some respondents showed a grasp of the rules for appeal by writing “six months”
or the like. Yet they bypassed a clearly stated specific date to answer with a general rule
that derives from a source other than the EOMB.

About half the respondents, 54 percent, answered with the correct total amount the provider
can collect for the services on the sample EOMB. But 69 percent answered with the
correct total amount they needed to add to Medicare’s payment to meet their total
responsibility. Most of the claims in the sample were assigned and one might easily guess
the “Your 20%” or “Your total responsibility” amount without understanding why.

A relatively low 53 percent of respondents correctly answered what the EOMB tells them
to do if Medicare paid for a service they did not receive. The EOMB was less effective at
conveying this information than the answers to most of our other questions. One
respondent commented that it was necessary to spend 25 minutes and read through all the
information on the back of the form to find out what to do.


                                                         10
Beneficiaries regard the EOMB as no more, and no less, difficult to understand than
other notices they receive in the mail.

Sixty-six percent of the 281 respondents who expressed opinions characterized the EOMB
as being neither easier nor harder to understand than notices such as bank statements or
utility bills. Another 17 percent thought the EOMB easier; the remaining 17 percent
thought it harder.

One of the opinion questions on our survey invited respondents to rate the EOMB in
comparison to other notices they receive in the mail, such as bank statements and utility
bills. About 98 percent of the respondents (281/288) answered this question. As shown in
Figure 1, a clear majority considered the EOMB about the same as other notices for ease
of understanding. We estimate the precision of this survey result as f7 percent at the
95 percent confidence level.


                 Figure 1: 281 Respondents Compare the Ease of Understanding
                   Medicare’s EOMB to Other Mailed Notices (Utility Bills, etc.)




                         SAME (fM%)




               Source: 010 Mail Survey, September 1994




Those who thought the EOMB was easy to understand said things such as: “In my opinion
your explanations are precise and easy to understand,” or “It is good now. Leave it alone.”
On the other hand, those who thought the EOMB now was not easy to understand offered
comment such as: “The more I read about Medicare the more confused I get,” or “The
explanations are over-done to the point of confusion. Please simplify our lives a bit, not
complicate them.”




                                                         11 

                      RECOMMENDATION

It is satisfying that the rate of understanding for basic descriptive information is quite high.
It is of some concern, however, that the rate is lower for the subindex that bears upon
matters previously identified as most important to beneficiaries-what      action(s) to take
next.

 We recommend that HCFA build on its prior efforts and give major attention to
informational items having follow-up implications for the beneficiary.

As HCFA continues to revise the EOMB it should aim to facilitate beneficiary
understanding of the following items:

  .    what the beneficiary needs to pay out of pocket,

  .    how the beneficiary can get more information,

  .    how to appeal Medicare’s decision, and

  .    what to do if there appears to be fraud or abuse.




                                               12 

 COMMENTS                       ON       THE          DRAFT              REPORT

We shared a draft copy of this report with, and invited comments from, the Health Care
Financing Administration (HCFA) and the Assistant Secretary for Planning and Evaluation
(ASPE.) We summarize their comments below, along with our responses in italics.

The HCFA concurred with our recommendation. It stated that their Medicare Summary
Notice initiative includes plans for a section that will explain the actions necessary for an
appeal, and a “Customer Service Information Box” that will display important information.

 We appreciate HCFA ‘s positive response. We would be pleased to work with it in the
future to evaluate the effectiveness of the new summary notices, perhaps as an application
 of the methodology we developed in this study.

The ASPE, in comments accompanying its conditional concurrence with our draft report,
stated: ” ...the report should not assert that beneficiaries appear to understand most of the
information on the EOMB.” It went on to say: “It is easily argued that Medicare
beneficiaries ... find [the EOMB] very difficult to interpret based solely on the information
that fewer than 50% of them handle their own Medicare paperwork.”

We have revised the report to recognize more clearly the possible role that another person
might play in helping the bene$ciary. However, we have retained in the finding the
assertion about beneficiary understanding.

Our purpose was to measure the effectiveness of the EOMB as Medicare actually uses it.
In mailing the EOMB to the beneficiary Medicare accepts whatever informal support the
beneficiary chooses. We accepted as representative of beneficiary understanding the
answers returned by anyone responding on the beneficiary’s behalf just as Medicare
accepts the informal support that friends, relatives, physicians, and representatives give
beneficiaries in understanding the EOMB.




                                              13 

                          APPENDIX                               A




                                      EXAMPLE

                                               of an

EXPLANATION               OF MEDICARE                            PART B BENEFITS

                                          (EOMB)


  Front of EOMB     ..........................................                     A-2

  Back of EOMB    ...........................................                      A-4


  NOTE: 	     The numbers written on the example correspond              to
              questions on the survey instrument.




                                                 A-l
                               THIS IS NOT A BILL
                    Explanation of Your Medkare Part B Benefits

                                                                                                                            WI-FA-00001

                                                                                    Summary of this notice dated March 31, 1994
               JAMES T KIRK 

               1701 W WARP DR 

               APARTMENT 8C 
                                                        Total charges :                           $280.00
               ALDEBARAN US 22222-2003 
                                             Total Medicare approved:                  $171.21

                                                                                     We are paying you:                        $137.57
                                                                                     Your total responsibihty;                 $196.89



               Your Medicare number is:         123-45-6789A                    Your provider did not accent assignment
Details about this notice (Seethe back for more information,)

Control number 0246-8135-79024
BILL SUBMITTED BY:                ENTERPRISE MEDICAL GROUP
Mailing address:                  1722 STARLIGHT DR VULCAN US 33333
                                                                                                                               See
                                                                                                                 Medicare      Notes
m                                 Services and Service Codes                                Charge               Approved      Below
                                  JEAN-LUC PICARD M.D.
Ott 16, 1993                        1 Biopsy, abdominal mass [49180-511                     $      140.00        $       53.01 b,c
Ott 16, 1993                        1 Biopsy of urethra [53200]                             {      140.00        +      118.20 d,e
                                                                                Total              280.00        $      171.21 a
Your provider(s) did not accept assignment. We are paying you the amount that we owe you. See#4 on the back.
Notes: 

a This information is being sent to Medicaid.   They will review it to see if additional benefits can be paid. 

b The approved amount is less because this service was performed with another surgery on the same day.
c Your doctor did not accept assignment for this service. Under Federal law, your doctor cannot charge more than $           60.96.
d The approved amount is based on the fee schedule.
e Your doctor did not accept assignment for this service. Under Federal law, your doctor cannot charge more than $           135.93.




    IMPORTANT: If you have questions about this notice, call US Medicare Carrier Part B at 999-555-1212,
    or toli free at l-800-555-4567 or visit us at 1717 W. Broadway, Downtown, US 11111.
    You will need this notice if you contact us. To appeal our decision, you must WRITE to us before September 30, 1994
    at Medicare Part B, P.O. Box 9999, Downtown, US 11111. See#2 on the back.




                                                                   A-2 

                                                                                                                       WI-F4-00002
                                                                                                                       Page 2 of 2
                                                                                                                     JAMES T KIRK
Control number 0246-8135-79024                                                      Your Medicare number is:           123-456789A

More details about this notice

Here’s an explanation of this notice:
C$;y2$al    charges, Medicare approved 
    $    171.21     See #4 on the back.
                                                  34.24     We pay 80 % of the approved amount; you       a 20 % .
The 80 % ‘Medicare pays 
                   $    136.97     You have already met the deductible for i-3
                                                                                                      9 3.
Medicare owes 
                             $    136.97
Plus interest for delayed processing 
      +      0.60     Processing of these services exceeded set time limits.
Net payment after interest 
                $    137.57
We are paying you 
                         $    137.57     Please cash the enclosed check as soon as possible.

Of the total charges 
                      $    280.00
Less amount exceeding charge limit 
              83.11 	   You are not responsible for this amount which is in excess of the
                                                            Medicare limiting charge.
                                                            See note(s).
Your total responsibility                   $    196.89 	   The provider may bill you for this amount.
                                                            If you have other insurance, the other insurance may pay
                                                            this amount.




   IMPORTANT: If you have questions about this notice, caii US Medicare Carrier Part 3 at 999-555-1212, 

   or toil free at l-800-555-4567 or visit us at 1717 W. Broadway, Downtown, US 11111. 

   You will need this notice if you contact us. To appeal our decision, you must WRITE to us before September 30, 1994 

   at Medicare Part II, P-0. Box 9999, Downtown, US 11111. See#2 on the back. 





                                                             A-3 

                          Important hfimnation You Should Know
                            About Your Medicare Part B Benefits

This part of the notice answers some questions about receiving Medicare aymeqts. If you have other
questions, see your copy of The Medicare Handbook or call us for more mFormatlon.

1. 	   What should I do if I have questions about this                         All Medicare payments are made on the condition that
       notice?                                                                 you will pay Medicare back if benefits are also paid
       If you have questions about this notice, call, write, or                under insurance that is primary to Medicare.
       visit us and we will tell vou the facts that we used to                 Examples of other insurance are employer group
       decide what and how m&h to pay. Turn to the front                       health plans, automobile medical, liability, no fault or
       of this notice; our address and phone number are on                     workers’ compensation. Notify us immediately if you
       the bottom of the page.                                                 have filed or could file a claim with insurance that is
                                                                               primary to Medicare.
2. 	   Can I appeal how much Medicare paid for these
       services?                                                          4.   How can I reduce my medical costs?
       If you do not agree with what Medicare approved for                     Many providers have agreed to be part of Medicare’s
       these services, you may appeal our decision. To make                    participation program. That means that they will
       sure that we are fair to you, we will not allow the                     always accept the amount that Medicare approves as
       same people who originally processed these services                     their full payment. Write or call us for the name of a
       to conduct this review.                                                 participating provider or for a free list of participating
                                                                               providers.
       However, in order to be eligible for a review, you
       must write to us within 6 months of the date of this                    A provider who accepts assignment for covered
       notice, unless you have a good reason for being late                    services can charge you only for the part of the
       (for exam le, if you had an extended illness which                      annual deductible you have not met and the
       kept you K om being able to file on time).                              copayment which is 20 percent of the approved
                                                                               amount.
       Turn to the front of this notice; the deadline date and
       our address are on the bottom of the page. It may                       If you are treated by one of these doctors, you can
       help your case if you include a note from your doctor                   save money. See The Medicare Handbook for more
       or supplier (provider) that tells us what was done and                  information about how you can reduce your medical
       why.                                                                    costs.
       If you want help with your appeal, or if you have                       Generally a doctor who has not accepted assignment
       questions about Medicare, you can have a friend or                      may not charge more than 115 percent of the
       someone else help you. There are also groups, such as                   Medicare approved amount for services provided in
       legal aid services, who will provide free advisory                       1993 or later. This is known as the limiting charge.
       services if you quali?. In additio?, volunteers at                      Contact us if assignment was not accepted, and you
       Medicare peer counselmg programs m your area can                        think your doctor charges more than the limiting
       also provide you with assistance. If you would hke                      charge.
       more information on how to get in touch with a
       counselor, contact us at the address or phone numbers                   Some states have laws that could further reduce your
       on the bottom of the front page of this notice.                         medical costs. Please see The Medicare Handbook
                                                                               published in 1993 or later for more information.
3.     How much does Medicare pay?
       The details on the front of this notice explain how                5.   How can I use this notice?
       much Medicare paid for these services. See your copy                    You can use this notice to:
       of The Medicare Handbook for more information
       about the benefits you are entitled to as a beneficiary                 0        Contact us immediately if you think
       in the Medicare Part B program. If you need another                              Medicare paid for a service you did not
       copy of the handbook, call or visit your local Social                            receive;
       Security Office.
                                                                               0        Show your provider how much of your
       Medicare may make adjustments to your payment. We                                deductible you have met;
       may reduce the amount we pay for services by a
       certain percentage (Balanced Budget Law). If your                       0        Claim benefits with another insurance
       provider acceptgd assignment, you are not liable to                              company. If you send this notice to them,
       oav the amount of this reduction. We nav interest on                             make a copy of it for your records.
       iohe claims not paid within the required time.



                                            Keep this notice for your records
                                          Health Care Financing Administration



                                                                  A-4 

                              APPENDIX                   B

                           SAMPLE           SELECTION

Our purpose was to measure the effectiveness of the EOMB, so it would be reasonable to
select a random sample from some population of EOMBs. Unfortunately, no database of
EOMBs exists. Claims for medical insurance benefits result in EOMBs, so we selected our
sample from a population of claims.

We selected claims from HCFA’s Common Working File that met the following
conditions:

  .	   The last date of service was on or after May 1, 1993. This ensures that the EOMB
       was issued after all the carriers had implemented HCFA’s major revisions that were
       the subject of the Westat report.

  .	   The last date of service was on or before December 3 1, 1993. The provides an S-
       month sample that is large enough to average out most seasonal variations.

Implicitly, we also had a condition limiting the selection to claims that had been processed
by the carriers and reported to HCFA by March 3 1, 1994. This was the most recent data
available at the time of selection.

Following discussions with HCFA we placed no restrictions on the type of claim selected.
Any claim, paid or denied, assigned or nonassigned, physician or nonphysician for any
beneficiary and for any amount, anywhere in the country was eligible for selection.

Also following discussions with HCFA we planned to report the results to a precision of
5 percent at the 95 percent level of confidence. Since the key questions in our survey were
binary we made the conservative assumption that responses would be evenly divided
between correct and incorrect. These criteria imply a sample size of about 400.

Based upon OIG’s past experience in conducting mail surveys with beneficiary populations
we anticipated a response rate of about 7.5 percent. In order to realize 400 responses this
implies a sample size of about 540. But not all claims result in EOMBs, some are
suppressed by the carriers. Following discussions with HCFA we estimated about
20 percent of EOMBs would be suppressed. So we selected a sample of 675 claims in
order to send out 540 questionnaires and realize 400 responses.

When we requested EOMB copies from the carriers we found that the EOMBs for
 163 (24 percent) of the claims had been suppressed. Carriers have discretion to suppress
the EOMB for claims that do not admit beneficiary appeal or require follow-up action.
Examples include assigned laboratory claims paid at 100 percent, or claims for Medicaid



                                            B-l
recipients. We did not mail questionnaires to beneficiaries who had not received an
original EOMB during regular claim processing.

Also, we did not mail questionnaires to beneficiaries who were recorded as deceased in the
Enrollment Database at the time of sample selection. The following table summarizes the
sample:


            I/             TABLE    B-l:   SURVEY MAILING                       II
               NUMBER
                                               DESCRIPTION
              OF CLAIMS
                   675        Entire random sample
                   163        Claims with EOMB suppressed
                   512        Sample with EOMB sent originally
                    61        Deceased beneficiaries among 5 12 sent EOMB
                  451         Recipients of the survey questionnaire



The next table details our experience with the 451 surveys we mailed to beneficiaries.


            (/TABLE                 B-2: MAILING        RESULTS                 II
               NUMBER
                                               DESCRIPTION
              OF CLAIMS
                  451         Recipients of the survey questionnaire
                  288         Timely responses, 07/Ol/94-09/23/94
                       9      Late responses, after 09/23/94
                      4       Postal Service returns, undeliverable
            11        18    1 Contacted OIG, could not respond                  II
                   132        No contact, no response


We completed our mail survey with 288 responses, a 64 percent response rate. We
counted as a respondent anyone who returned a questionnaire with at least one question
answered. One respondent answered only 2 questions, 150 respondents answered all the
questions, and 259 respondents answered at least 75 percent of the questions in the survey.
Overall, the 288 respondents answered 7659 out of 8392 questions in the survey (29 per
respondent, a 92 percent answer rate), and 131 (45 percent) offered comments.



                                            B-2 

Answer rates for individual questions varied from a low of 81 percent (231/288) to a high
of 98 percent (283/288). Taking the low value of 231 as the sample size, we can
conservatively estimate the measured precision of the survey results for categorical
questions as slightly better than 7 percent, at the 95 percent confidence level.

The several indexes of understanding which we discuss in the text are continuous rather
than categorical variables. We give the precision of these index results in the table below.


                        TABLE      B-3: PRECISION          FOR INDEXES
                         INDEX                  MEAN               PRECISION
                                                VALUE
                         Overall                    72                f2.37%
                          Basic                     83                f2.57%
                           cost                     71                +3.20%
                         Context                    68                +3.06%
                         Action                     64                +3.02%
                  NOTES: Index values for percent correct answers.
                         Number of respondents = 288
                         Precision at 95 percent level of confidence (t = 1.96).




                                                B-3 

                              APPENDIX                    C

             ANALYSIS            FOR NONRESPONSE                       BIAS
In a survey based upon a random sample we need to consider the possibility that bias may
be introduced through self-selection by the respondents. To determine whether significant
differences exist in this survey we compared the two groups, respondents and
nonrespondents, by age and sex. We found no difference between the groups for either
variable at the 95 percent confidence level.

Analysis by Age

Calculated at July 1, 1994, the average age for beneficiaries who responded to the survey,
either on their own or through a representative, was 73.5 years. By comparison, the
average age for nomespondent beneficiaries in the sample was 75.4 years, and the average
age for the entire sample of 451 beneficiaries was 74.2 years.

We tested the significance of age differences between respondents and nonrespondents by
using the t-test procedure in the SAS program package. The calculated t value was 1.8 1,
which is not statistically significant at the 95 percent confidence level. We conclude that
there is no difference between respondents and nomespondents by age at the 95 percent
confidence level.

Analysis by Sex

The percentage respondents and nonrespondents by sex is:




We used the chi-square test to look for a difference between respondents and
nonrespondents by sex. The computed chi-square value of 2.6 is not statistically
significant at the 95 percent confidence level. We conclude that there is no difference
between respondents and nonrespondents by sex at the 95 percent confidence level.




                                            C-l
                           APPENDIX                    D

        UNDERSTANDING   MEDICAL BENEFITS
                 SURVEY RESULTS
.	   The number of responses, or survey instruments returned with at least one question
     answered, equals 288. The number of answers varies from question to question.

.	   On the survey questionnaire we referred to the notice that was the subject of this
     study, the “Explanation of Your Medicare Part B Benefits”, or EOMB, simply as
     “Your Explanation.” Appendix A contains a sample EOMB with answers to the
     survey questions marked.

.	   Most (23 out of 30) survey questions asked for specific information given on the
     beneficiary’s sample EOMB, a copy of which was included with the mailing. We
     recorded and give here the numbers of correct and incorrect answers. For these
     questions we also give percentages of all the (288) responses correct, incorrect, and
     not answered. And for the seven of these questions that allowed a “Don’t Know”
     answer, we give the numbers and percentages for that option.

     Questions 10, 17, 18, 19, 24, and 25 asked for the beneficiary’s opinion or
     preference. We recorded and give here the numbers for each choice. For these six
     opinion questions we give percentages excluding the respondents who did not
     answer the question.

l    Question 30 invited comments. We give here the numbers who did and did not
     comment.

.    The sum of individual percentages may not equal 100 due to independent rounding.




                                         D-l
                         UNDERSTANDING   MEDICAL BENEFITS
                                  SURVEY RESULTS
    QUESTION                                              NUMBERS           PERCENTAGES
I                                                                                         ,


    IDENTIFYING     YOUR EXPLANATION
    1. Please write in the date of your Explanation.
       Correct                                                 180               63
       Incorrect                                               93                32
       No Answer                                                15                5


    2. 	Please write in the first control number on your Explanation.
       Correct                                                 243               84
       Incorrect                                               29                10
                                                      I                 I
       No Answer
    WHAT YOUR EXPLANATION             SHOWS
    3. Who provided the health care services described on your Explanation?
       Correct
       Incorrect                                      I         13      I         5
       No Answer                                                15                5


    4. 	What kinds of health care services did they provide?
       Correct                                                 236               82
       Incorrect                                               31                11
       No Answer                                               21                 7


    5. When did they provide the health care services?
       Correct                                                 235               82
       Incorrect                                      I        22       I         8
       No Answer




                                              D-2 

                        UNDERSTANDING   MEDICAL BENEFITS
                                 SURVEY RESULTS
    QUESTION                                          NUMBERS            PERCENTAGES
r                                                                                        I


    6. What does your Explanation ask you to do if Medicare paid for a service you did
       not receive?
       Correct                                             152                   53
       Incorrect                                            89                  31
       Don’t Know                                           19                   7
       No Answer                                           28                    10
    WHAT ARE THE COSTS ON YOUR EXPLANATION
    7. Please write in the total amount of money that Medicare was charged for all the
       services on your Explanation.
       Correct                                            243                    84
       Incorrect                                            16                   6
       No Answer                                           29                    10


    8. Please write in the total amount of money that Medicare approved for all the
       services on your Explanation.
       Correct                                            259                   90
       Incorrect                                            4                    1
       No Answer                                           25                    9
    THE NOTES ON YOUR EXPLANATION 

    9. Your Explanation may include some Notes that tell you how Medicare decided the
       amounts to approve for each service.
       Please mark the one box that most closely describes how Medicare decided the
       approved amounts on your Explanation.
       Correct                                            200                   69
       Incorrect                                           64                   22
       Don’t Know                                            1                   0
       No Answer                                           23                    8




                                            D-3 

                         UNDERSTANDING   MEDICAL BENEFITS
                                  SURVEY RESULTS
    QUESTION                                           NUMBERS            PERCENTAGES
I                                                                                              I


    10. How strongly do you agree or disagree with the statement that the Notes on your
       Explanation are clear and easy to understand?
        Strongly Agree                                      130                   49
        Somewhat Agree                                      106                   40
        Somewhat Disagree                                    13                    5
        Strongly Disagree                                    14                    5
       No Notes
       No Answer                                             25                   --

    WHAT MEDICARE           PAID
    11. Please write in the total amount of money that Medicare paid for all the services on
       your Explanation.
       Correct                                              223                   77
       Incorrect                                             39                   14
       No Answer                                             26                   9


    12. Who did Medicare pay for the services on your Explanation?
       Correct                                              249                   86
       Incorrect                                             17                   6
       No Answer                                             16                   6
    WHAT MEDICARE           DID NOT PAY
    13. Please write in the amount Medicare applied to the deductible for the services on
       your Explanation.
        Correct                                             169                   59
       Incorrect                                             82                   28
       No Answer                                             37                   13




                                             D-4 

                        UNDERSTANDING   MEDICAL BENEFITS
                                 SURVEY RESULTS                                               A
IIQUESTION                                          I   NUMBERS         1 PERCENTAGES         I/



 14. Please write in the amount of the copayment for the services on your Explanation.
     Correct                                               134                    47
     Incorrect                                             101                    35
    No Answer                                               53                    18
 WHAT YOU OWE
 15. Please write in the total amount the health care providers are entitled to receive for
    the services on your Explanation.
     Correct                                               155                    54
     Incorrect                                              85                    30
    No Answer                                               48                    17


 16. Please write in the total amount you need to add to Medicare’s payment in order to
    pay your total responsibility (even if other insurance will pay some or all of it
    for you).
     Correct                                               198                    69
     Incorrect                                              45                    16
    No Answer                                               45                    16


 17. Your Explanation may contain a calculation of your total responsibility. If your
    Explanation has a calculation, how strongly do you agree or disagree with the
    statement that it is clear and easy to understand.
     Strongly Agree 
                                      116                    50
     Somewhat Agree 
                                       88                    38
     Somewhat Disagree 
                                    19                    8
     Strongly disagree 
                                     8                    3
    No Calculation 
                                         0                    0
    No Answer 
                                             57                    --




                                            D-5 

                     UNDERSTANDING   MEDICAL BENEFITS
                              SURVEY RESULTS
QUESTION                                          NUMBERS            PERCENTAGES



USING YOUR EXPLANATION
18. Who usually takes care of your Medicare Explanations and other health care paper
   work?
    I Do It Myself                                     121                  45
    A Friend or Relative                                71                  27
    Health Care Providers                               42                  16
    Someone Else                                        28                  11
    Don’t Know/Understand                                4                   2
   No Answer                                            22                   --


19. What do you usually do with your Explanation when you get one from Medicare?
    Read Myself                                        183                  66
    Someone Explains                                    70                  25
    Try, No One Helps                                   7                    3
    Keep for Later                                      14                   5
    Discard                                             0                    0
    Don’t Know/Understand                               4                    1
   No Answer                                            10                  --

APPEALING      MEDICARE’S    DECISION
20. 	Who does your Explanation ask you to contact if you have a question about your
    Medicare benefits?
    Correct                                           225                   78
   Incorrect                                           34                   12
   No Answer                                           29                   10




                                        D-6 

                          UNDERSTANDING   MEDICAL BENEFITS
                                   SURVEY RESULTS
    QUESTION                                            NUMBERS           PERCENTAGES
I                                                                                             1




    21. 	What does your Explanation tell you to do to appeal Medicare’s decision, if you do
        not agree with it?
        Correct                                             234                   81
        Incorrect                                            36                   13
        Don’t Know/Understand                                 6                    2
        No Answer                                            12                    4


    22. 	What is the latest date you could appeal Medicare’s decision on your Explanation?
        Correct                                             150                   52
        Incorrect                                            93                   32
        No Answer                                            45                   16
    SOME GENERAL         INFORMATION
    23. Please write in your Medicare number.
        Correct                                             272                   94
        Incorrect                                            10                    3
        No Answer                                             6                    2


    24. 	How do you prefer to contact Medicare?
        Phone                                               231                   84
        Write                                                29                   11
        Personal Visit                                       15                    5
        No Answer                                            13                   --




                                             D-7
II                      UNDERSTANDING   MEDICAL BENEFITS
                                 SURVEY RESULTS                                         II
/IQUESTION                                       I   NUMBERS        1 PERCENTAGES       /I



 25. 	How do you rate Medicare’s Explanation compared to other notices you get in the
     mail, such as bank statements and utility bills. The Explanation is:
     Easier to Understand                               48                   17
     About the Same                                     185                  66
     Harder to Understand                               48                   17
     No Answer                                            7                   --

 SOME MEDICARE          DEFINITIONS
 26. 	Please mark the one box that best matches what you understand by Medicare’s
     word “Assignment.”
     Correct                                           216                   75
     Incorrect                                          23                    8
     Don’t Understand                                   41                   14
     No Answer                                            8                   3


 27. Please mark the one box that best matches what you understand by Medicare’s
    word “Deductible.”
     Correct                                           241                   84
     Incorrect                                          33                   11
     Don’t Understand                                    9                    3
     No Answer                                            5                   2


 28. 	Please mark the one box that best matches what you understand by Medicare’s
     word “Copayment.”
     Correct                                            195                  68
     Incorrect                                           31                  11
     Don’t Understand                                   48                   17
     No Answer                                           14                   5



                                         D-8 

II


II                       UNDERSTANDING   MEDICAL BENEFITS
                                  SURVEY RESULTS

IIQUESTION                                           I   NUMBERS         PERCENTAGES
                                                                                             I




     29. 	Please mark the one box that best matches what you understand by Medicare’s
         words “Your total responsibility.”
         Correct 
                                          123                  43 

        Incorrect 
                                         142                  49 

        Don’t Understand 
                                   11                   4

        No Answer 
                                          12                   4

     COMMENTS
     30. 	We’d appreciate your suggestions on ways to make Medicare Explanations easier to
         understand.
         Comments Made                                      131                  45 

        No Comments                                         157                  55 





                                             D-9 

                           APPENDIX                E


COMPLETE             COMMENTS                ON THE DRAFT REPORT 



Comments from the Health Care Financing Administration    ................               E-2 


Comments from the Assistant Secretary for Planning and Evaluation            .........   E-4 





                                       E-l
        DEPAHTMENT   OF HEALTH   PLHUhlAN   SERVICES                     Health Care financq      Admmtstrat~on



                                                                        The Admtrwstrator
                                                                        Washtngton.   D.C.     20201




 TO 	          June Grbbs Brown
               Inspector Genera1

 FROM 	        Bruce C. Vladec
               Administrator

SUBJECT 	      Office of Inspector General Draft Report: “Understanding Medical
               Benefits: The Explanation of Medicare Part B Benefits”
               (OEI-01-93-00120)


We reviewed the subject report which presented results. from the survey OII beneficiary
understanding of the Expianation of Medicare Part B Benefits. Our comments are
attached for your consideration.

Thank you for the opportunity to review and comment on this report. Please advise US
if you would like to discuss our position on the report’s recommendation.

Attachment




                                            E-2 

               Comments of the Health Care Financing Administration fHCFA)1 

                   on Office of Inspector General (OIG) Draft Report: 

                             “Understanding Medical Benefits: 

                      The Exuianation of Medicare Part B Benefits” 

                                    JOEL01-93-001201 



  OIG Recommendation

 HCFA shouid build on its prior efforts and give major attention to informational items
 having followup implications for the beneficiary. As HCFA continues to revise the
 Explanation of Your Medicare Part B Benefits it should aim to facilitate beneficiary
 understanding of the following items:

       0       What the beneficiary needs to pay out of pocket,
       0       how the beneficiary can get more information,
      0        how to appeal Medicare’s decision, and
      0        what to do if there appears to be fraud or abuse.

 HCFA Resuonse

HCFA concurs. We have begun our initiative to redesign all beneficiary notices into
one, easy to read, Medicare Summary Notice (MSN). As part of the MSN initiative,
HCFA consulted with Medicare beneficiaries who provided us with feedback on the
current beneficiary notices.

 In response to our beneficiaries’ comments, we plan to incorporate into the MSN a
 section that will explain the actions necessary to request an appeal. For clarity, we will
 include a special “Customer Service Information Box” that will display important
information. To help us combat fraud. we will revise the fraud language to include
examples of fraudulent activities and provide instructions if our beneficiaries suspect
fraud.

The improvements described reflect our current plans and ideas. However, we wiI1
solicit more beneficiary input once we complete the draft design.

Additionally, we are currently reviewing the HCFA publications with regard to
beneficiary information.




                                            E-3 

                                                                                                                     i


              DEPARTIYIENToFHEALTHLHUMANSERVICES                                    Offkeof       the Secretary


                                                                                    washlngron.       O.C.   20201




      TO: 	            June Gibbs Brown
                       Inspector General
      FROM: 	          Assistant    Secretary for
                       Planning    and Evaluation
      SUBJECT: 	 OIG Draft           Report:       "Understanding      Medical   BetifLss"               -
                       CONDITIONlG      CONCURRENCE WITH COMMENTS


  This inspection   was intended to measure benef&ciary     understanding

  of Medicare's   Explanation   of Your Medicare Part B Benefits 

   (EOMB). It follows changes in the EOMBmade by HCFA in response 

  to recommendations from a Westat Inc. study in 1992.        It 

  indicates  that HCFA'S continuing    efforts  to improve the EOMB are 

  producing a more “user-friendly"     form. 

 Throughout the report OIG refers to "communicating             claim
 information        to beneficiaries,"    when the survey was not limited       to
 beneficiaries.         The report notes that "[OIG] recognized       that many
  [beneficiaries]       do not handle their     own business affairs"    and
 invited      whoever handled those affairs       to respond.   The survey
 results      indicate   that fewer than 50% of those surveyed.take        care
 of their own Medicare Explanations.             Therefore the report should
 not assert that "beneficiaries           appear to understand
 most of the information           on the EOMB."
 It     is easily         argued that
                               Medicare beneficiaries,         in Spite Of 

 improvements     to the EOMB, still   find it very difficult         to 

interpret     based solely   on the information     that fewer than 50% of 

them handle their       own Medicare paperwork.       Further,    given this 

information,     it  would  be useful  to  analyze    the  data   based    on
whether the respondent was the beneficiary           or another person.
I look          forward    to seeing     these     data   in the    revised   report.



                                        Jg                im
                                        David     T. Ellwood

Prepared         by:    C. Colladay,      690-7770




                                                 E-4 

                           APPENDIX                   F


                                     NOTES

1.   The statutory basis for Medicare is located at Title XVIII of the Social Security
     Act, as amended, 42 U.S.C. 1395 ff. The implementing regulations are at 42 CFR
     Part 400 et seq.

2.   An elegant summary of the structure .and operation of Medicare is contained in The
     Medicare 1994 Handbook, published by the Health Care Financing Administration
     and provided to all beneficiaries.

3.   Major exceptions include beneficiaries who join a health maintenance organization,
     those entitled to Medicaid, and those with medical benefits through the Department
     of Veterans Affairs.

4.   The provider of service is always required to submit the claim to Medicare (to the
     carrier). The provider may choose to receive payment directly from Medicare for
     its portion of the amount due (accept assignment of the Medicare payment). Or the
     provider may choose to have Medicare make payment to the beneficiary (not accept
     assignment) and look to the beneficiary for full payment.

5.   In other words the EOMB sets the stage for administrative finality. Because some
     claims present no issue for appeal, Medicare suppresses the EOMBs on these.
     Assigned laboratory claims paid in full are a common example. Currently Medicare
     suppresses the EOMB for about 20 percent of Part B claims.

6.   Evaluation of Revised Medicare EOMB, Final Report on Beneficiary
     Understanding. Report submitted by Westat, Inc. to the Health Care Financing
     Administration under contract 500-92-0006, dated March 3 1, 1993.

7.   Medicare Claims Handling: The Consumer Perspective. Report of a Study Panel of
     the National Academy of Social Insurance, Washington, DC, April 1993.




                                        F-l
